f

LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

May 3, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
Re:

Adam Perry McNiece v. Town of Yankeetown Florida, et al.

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on May 3, 2021, I caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following Respondents:
State of Florida
Office of the Attorney General
Ashley Moody
PL-01 The Capitol
Tallahassee, FL 32399-1050
850-414-3300
oa g. civil. e serve@myflorid ale gal .com

RESPONDENTS:
Town of Yankeetown
Town Clerk
6421 Harmony Lane
Yankeetown, FL 34498
352-447-2511
yankeetownadm@bellsouth.net
Levy County
Ann Bast Brown - County Attorney
612 East Hathaway Ave.
Bronson, FL 32621
annebrownlevy@bellsouth.net

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Received
MAY - 5 2021
40

LISA KAY NICHOLSON
,
Notary Public
State of Maryland
' Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 3rd day of May 2021.

e^\

